UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-1556

United States of America
Plaintiff - Appellee
v.
Michael Adefemi Adeyemo, also known as Adekunle Olufemi Adetiloye
Defendant-'- Appellant ■
Appeal from U.S. District Court for the District of North Dakota - Fargo
(3:15-cr-00090-LRR-1)
JUDGMENT

Before SMITH, Chief Judge, MELLOY, and SHEPHERD, Circuit Judges.

This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
September 02, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

"APPENDIX A"
Page-i

®mteb i&tatetf Court of Appeal#
jfor tljB Ctgfjtfj Circuit
••

No. 19-1556

United States of America
Plaintiff - Appellee
v.
Michael Adefemi Adeyemo, also known as Adelcunle Olufemi Adetiloye
Defendant - Appellant

Appeal from United States District Court
for the District of North Dakota - Fargo

Submitted: May 12, 2020
Filed: September 2, 2020
[Unpublished]

Before SMITH, Chief Judge, MELLOY and SHEPHERD, Circuit Judges.

PER CURIAM.
Defendant Michael Adefemi Adeyemo operated a multi-million dollar fraud
scheme that involved opening credit cards in the names of other individuals. In 2001,
Defendant and two others were charged in California with operating a fraud scheme.
United States v. Adeyemo, No. 8:01-cr-75 (C.D. Cal. filed May 9, 2001). Defendant
left the country before he could be arrested. By late 2003, Defendant lived in Canada

"appendix a"
Page-2

under the false name and identity of Adekunle Olufemi Adetiloye. He applied for
refugee status in Canada using the new name and false biographical information. In
2008, a grand jury in the District of North Dakota returned an indictment bringing
fraud-scheme charges against Defendant under his false name. United States v.
Adetiloye, No. 3:08-cr-28 (D.N.D. filed Mar. 19, 2008). In 2010, Canada extradited
Defendant to the United States, where he later pleaded guilty and was sentenced in
North Dakota as Adetiloye.

In 2014, the government realized Adetiloye and

Adeyemo were one in the same, leading to the instant charges. In 2018, a jury found
Defendant guilty on four counts of obstruction of justice, in violation of 18 U.S.C.
§ 1503, for providing or affirming false identifying information to the District of
North Dakota with the intent to mislead the court (Counts 1 and 2) and to prevent the
Central District of California from discovering his location (Counts 3 and 4).
On appeal, Defendant argues he had a Fifth Amendment right to not volunteer
his given name because it would have exposed him to the pending California charges.
The district court1 rejected this argument under Hiibel v. Sixth Judicial District Court
of Nevada, 542 U.S. 177, 191 (2004), and so do we. Defendant did not assert his
right to remain silent in fear of self-incrimination. Instead, Defendant repeatedly
provided false identification and information to the court and its officers during the
prosecution of his own criminal case. Cf. United States v. Pereira-Munoz, 59 F.3d
788, 793 (8th Cir. 1995) (as applied to the obstruction-of-justice sentencing
enhancement). Defendant also argues that the jury’s verdict was not supported by
sufficient evidence and that the district court abused its discretion instructing the jury.
Based on our thorough review of the record, we affirm. See 8th Cir. R. 47B.

'The Honorable Linda R. Reade, United States District Judge for the Northern
District of Iowa, sitting by designation.
-2-

"appendix a"
Page-3

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1556
United States of America
Appellee
v.
Michael Adefemi Adeyemo, also known as Adekunle Olufemi Adetiloye
Appellant

Appeal from U.S. District Court for the District of North Dakota - Fargo
(3:15-cr-00090-LRR-1)
MANDATE
In accordance with the opinion and judgment of 09/02/2020, and pursuant to the
provisions of Federal Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in
the above-styled matter.
November 25, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

"APPENDIX A"
Page-5

• Case 3:15-cr-00090-LRR Document 126 Filed 11/09/18 Page lot 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,

No. 15-CR-90-LRR
ORDER

vs.
MICHAEL ADEFEMI ADEYEMO
a/k/a ADEKUNLE OLUFEMI
ADETILOYE,
Defendant.

The matter before the court is the government’s “Objections to Proposed Jury
Instructions” (“Government’s Objections”) (docket no. 124), which the government filed
on November 8, 2018, and Defendant Michael Adefemi Adeyemo’s “Objections to Jury
Instructions” (“Defendant’s Objections”) (docket no. 125), which,Defendant also filed on
November 8, 2018.

After considering the Government’s Objections, the court has

incorporated the revisions suggested in paragraphs 1 through 6 of the Government’s
Objections. After considering Defendant’s Objections, the court notes that it does not „
intend to provide the jury with a copy of the Superseding Indictment. See Defendant’s
Objections f 1. The court overrules paragraphs 2 through 4 of Defendant’s Objections.
The court also overrules Defendant’s proposed instruction regarding Defendant’s right to)
Fifth Amendment Protection. See Defendant’s Objections at 3.
As stated in the court’s November 8, 2018 Order (docket no. 123), the court intends
to read the first section of instructions (Instruction Nos. 1-21) to the jury prior to opening
statements and the second section of instructions (Instruction Nos. 22-24) after closing
arguments. The Verdict Forms will be read .to the jury after closing arguments as well.
If the evidence supports giving additional instructions, they may be inserted as appropriate.
Any prior objections made in writing do not need to be reasserted at this time to

"APPENDIX A"
ADD.1(a)

v

Case 3:15-cr-00090-LRR Document 126 Filed 11/09/18 Page 2 of 2

preserve any error.

*

IT IS SO ORDERED.
DATED this 9th day of November, 2018.

LH^PA R. READ# JUDGE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF IOWA

Case 3:15-cr-00090-LRR Document 131 Filed 11/13/18 Page 14 of 25

INSTRUCTION NO. 12
The crime of obstruction of justice, as charged in Count 1 of the Indictment, has
the following essential elements:
One, on or about February 9,2011, in connection with a criminal case filed against
him in the United States District Court for the District of North Dakota, styled United
States of America v. Adekunle Olufemi Adetiloye, Case No. 3:08-cr-28, defendant
provided or affirmed false information to the United States District Court for the District
of North Dakota, and others. Specifically, defendant provided false information regarding
his namft and date of birth that affirmed a false identity previously created.
Two, at the time he provided or affirmed the false information, defendant knew that
criminal charges were pending against him in the United States District Court for the
District of North Dakota, Case No. 3:08-cr-28; and
Three, by providing or affirming false information to the United States District
Court for the District of North Dakota, and others, the defendant corruptly endeavored to
influence, obstruct or impede the due administration ofjustice in United States of Amgrica
V Ariftlnmle Olufemi Adetilove. Case No. 3:08-cr-28.
For you to find the defendant guilty of this crime charged in Count 1, the
government must prove each and every element beyond a reasonable doubt, Otherwise,
you must find the defendant not guilty of the crime charged in Count 1.

Appellate Case: 19-1556

Page: 13

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 131 Filed 11/13/18 Page 15 of 25

INSTRUCTION NO. 13
The crime of obstruction ofjustice, as charged in Count 2 of the Indictment, has the
following essential elements:
One, on or about March 3, 2011, in connection with a criminal case filed against
him in the United States District Court for the District of North Dakota, styled United
States of America v. Adekunle Olufemi Adetilove. Case No. 3:08-cr-28, defendant
provided or affirmed false information to the United States District Court for the District
of North Dakota, and others. Specifically, defendant falsely stated:
a.
b.
c.
d.

His name;
His date of birth;
He had never lived in the United States;
His address history, work history, and reasons for his refugee status on his
refugee application in Canada; and/or
e. His arrival date in Canada as January 2005;
Two, at the time he provided or affirmed the false information, defendant knew that
criminal charges were pending against him in the United States District Court for the
District of North Dakota, Case No. 3:08-cr-28; and
Three, by providing or affirming false information to the United States District
Court for the District of North Dakota, and others, the defendant corruptly endeavored to
influence, obstruct or impede the due administration ofjustice in United States of America
v. Adekunle Olufemi Adetilove. Case No. 3:08-cr-28.
For you to find the defendant guilty of the crime charged in Count 2, the
government need not prove each type of information listed in element one; any one is
sufficient.

However, the jury must unanimously agree on which type or types of

information were falsely provided by the defendant.
For you to find the defendant guilty of this crime charged in Count 2, the
government must prove each and every element beyond a reasonable doubt. Otherwise,
you must find the defendant not guilty of the crime charged in Count 2.

Appellate Case: 19-1556

Page: 14

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 131 Filed 11/13/18 Page 16 of 25

INSTRUCTION NO. 14
The crime of obstruction ofjustice, as charged in Count 3 of the Indictment, has the
following essential elements:
One, on or about February 9,2011, in connection with a criminal case filed against
him in the United States District Court for the District of North Dakota, styled United
States of America v. Adekunle Olufemi Adetilove. Case No. 3:08-cr-28, defendant
provided or affirmed false information to the United States District Court for the District
of North Dakota, and others. Specifically, defendant provided false information regarding
his name and date of birth that affirmed a false identity previously created.
Two, at the time he provided or affirmed the false information, defendant knew that
criminal charges were pending against him in the United States District Court for the
Central District of California, styled United States of America v. Michael Adevemo. et al,.
Case Number SACR01-75, and that there was an outstanding federal arrest warrant for
him issued by the United States District Court for the Central District of California; and
Three, by providing or affirming false information to the United States District
Court for the District of North Dakota, and others, the defendant corruptly endeavored to
influence, obstruct or impede the due administration ofjustice in United States of America
v. Michael Adevemo. et al.. Case Number SACR01-75.
For you to find the defendant guilty of this crime charged in Count 3, the
government must prove each and every element beyond a reasonable doubt. Otherwise,
you must find the defendant not guilty of the crime charged in Count 3.

Appellate Case: 19-1556

Page: 15

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 131 Filed 11/13/18 Page 17 of 25

INSTRUCTION NO. 15
The crime of obstruction ofjustice, as charged in Count 4 of the Indictment, has the
following essential elements:
One, on or about March 3, 2011, in connection with a criminal case filed against
him in the United States District Court for the District of North Dakota, styled United
States of America v. Adekunle Olufemi Adetilove. Case No. 3:08-cr-28, defendant
provided or affirmed false information to the United States District Court for the District
of North Dakota, and others. Specifically, defendant falsely stated:
a.
b.
c.
d.

His name;
His date of birth;
He had never lived in the United States;
His address history, work history, and reasons for his refugee status on his
refugee application in Canada; and/or
e. His arrival date in Canada as January 2005;
Two, at the time he provided or affirmed the false information, defendant knew that
criminal charges were pending against him in the United States District Court for the
Central District of California, stvled United States of America v. Michael Adevemo, et al..
Case Number SACR01-75, and that there was an outstanding federal arrest warrant for
him issued by the United States District Court for the Central District of California; and
Three, by providing or affirming false information to the United States District
Court for the District of North Dakota, and others, the defendant corruptly endeavored to
influence, obstruct or impede the due administration ofjustice in United States of America
v. Michael Adevemo. et al.. Case Number SACR01-75.
For you to find the defendant guilty of the crime charged in Count 4, the
government need not prove each type of information listed in element one; any one is
sufficient. However, the jury must unanimously agree on which type or types of
information were falsely provided by the defendant.
(CONTINUED)

Appellate Case: 19-1556

Page: 16

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 131 Filed 11/13/18 Page 18 of 25

INSTRUCTION NO. 15 (Cont’d)
For you to find the defendant guilty of this crime charged in Count 4, the
government must prove each and every element beyond a reasonable doubt. Otherwise,
you must find the defendant not guilty of the crime charged in Count 4.

Appellate Case: 19-1556

Page: 1/

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 131 Filed 11/13/18 Page 19 of 25

INSTRUCTION NO. 16
The term “corruptly endeavor” means that the defendant voluntarily and
intentionally provided false information, and, in doing so, the defendant acted with the
intent to influence a judicial proceeding so as to benefit himself or another or subvert or
undermine the due administration of justice and with the knowledge that his actions were
likely to affect a judicial proceeding. The endeavor need not have been successful, but it
must have had at least a reasonable tendency to influence, obstruct or impede the due
administration of justice.

Appellate Case: 19-1556

Page: 18

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
EASTERN DIVISION

UNITED STATES OF AMERICA,
Plaintiff,

No. 15-CR-90-LRR

vs.

ORDER

MICHAEL ADEFEMIADEYEMO
a/k/a ADEKUNLE OLUFEMI
ADETILOYE,
Defendant.
TABLE OF CONTENTS
I.

INTRODUCTION

1

II.

RELEVANT PROCEDURAL HISTORY ....

2

III.

RELEVANT TRIAL EVIDENCE.........

3

IV.

MOTION FOR JUDGMENT OF ACQUITTAL

5

A.
B.
C.

Legal Standard..................................
Counts 1 and 2.....................................
Counts 3 and 4.....................................

5
6
8

MOTION FOR NEW TRIAL.......................

8

A.
B.
C.

9
9

V.

VI.

Legal Standard.................................. .
Constitutional Argument......................
Jury Instructions..................................

10

CONCLUSION................................................

11

I. INTRODUCTION
The matter before the court is Defendant Michael Adefemi Adeyemo’s Motion for
Judgment of Acquittal; or, in the alternative, Motion for New Trial (“Motion”) (docket
no. 139).

Appellate Case: 19-1556

Page: 20

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 2 of 11

II. RELEVANT PROCEDURAL HISTORY
On October 19, 2016, a grand jury returned a Superseding Indictment (docket no.
36) charging Defendant with four counts of obstruction of justice, in violation of 18
U.S.C. §§ 1503 and 2. See Superseding Indictment at 6-11. On November 13, 2018, a
jury trial commenced.1 See November 16, 2018 Minute Entry (docket no. 134) at 1. On
November 15, 2018, the jury returned a verdict finding Defendant guilty on Counts 1-4
of the Superseding Indictment. See Jury Verdict (docket no. 135) at 1-2, 5-6. The jury
also found that Defendant falsely stated or affirmed his name, his date of birth, that he
lived in the United States, his address history, work history, and reasons for his refugee
status on his refugee application in Canada and his arrival date in Canada as January 2005.
See id. at 3-4, 7-8. On November 29, 2018, Defendant filed the Motion. On December
11, 2018, the government filed a Resistance (docket no. 141).
On November 30,2018, Defendant filed a pro se Motion for New Trial (docket no.
140). On January 18, 2019, Defendant filed a pro se “Response to the Government’s
[Resistance] Brief” (docket no. 142). The court declines to consider Defendant’s pro se
motion and pro se response. “A district court is not required ‘to entertain pro se motions
filed by a represented party.’” United States v. Tollefson, 853 F.3d 481, 485 (8th Cir.
2017) (quoting Abdullah v. United States, 240 F.3d 683, 686 (8th Cir. 2001)). Defendant
is currently represented by counsel. See April 26, 2018 Order Regarding Appointment of
Counsel (docket no. 91). Accordingly, Defendant’s pro se Motion for New Trial shall be
denied.
The matter is fully submitted and ready for decision.

1 The delays in this case resulted from Defendant’s dissatisfaction with his lawyers.
The court appointed four different lawyers for Defendant from his arrest on January 13,
2016 to trial.
2

Appellate Case: 19-1556

Page: 21

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 3 of 11

111. RELEVANT TRIAL EVIDENCE
Viewed in the light most favorable to the verdict, the relevant trial evidence is as
follows:

In 1989, Defendant entered the United States at JFK airport in New York City, New
York. Defendant had a Nigerian passport identifying him as Michael Adefemi Adeyemo,
with a birth date of February 16, 1957. In the early 1990s, Defendant lived in California.
During this period of time, Defendant applied to work at the United States Postal Service
and applied for admission to law schools located in the United States,

In these

applications, Defendant identified himself as Michael Adeyemo, with February 16,1957,
being his date of birth.
In 1995, Defendant applied for permanent residence status and work authorization
in the United States. In these applications, Defendant identified himself as Michael
‘Deyemo, with a date of birth of March 2, 1964. Defendant claimed that the Nigerian
government made a mistake with regard to his birth date on the passport he used to enter
the United States in 1989. The applications also asked Defendant to provide any aliases
or other names he had gone by in the past. Defendant wrote the word “Emmanuel.” In
1999, Defendant, while living in California, met a woman named Alicia Whitman.
In 2001, a grand jury in the United States District Court for the Central District of
California, returned an indictment charging Defendant and two others with operating a
fraud Scheme. The case was styled United States of America v. Michael Adeyemo. et al..
Case Number SACR01-75. Before he could be arrested on the outstanding warrant, and
thereafter booked and fingerprinted in the Central District of California, Defendant left the
country and returned to Nigeria. At the time he left the country, Whitman was pregnant
with Defendant’s children. She gave birth to triplets in 2001.
In January 2003, Whitman and the three children visited Defendant in London,
England, where he was living at that time. Later in 2003 and in 2005, Whitman visited
3

Appellate Case: 19-1556

Page: 22

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 4 of 11

Defendant in Toronto, Ontario, Canada. In November 2005, Defendant applied for
refugee status in Canada, claiming to have first arrived in Toronto in January 2005. In the
application, Defendant identified himself as Adekunle Olufemi Adetiloye, with a date of
birth of February 16, 1971. Defendant claimed to have only ever lived in Nigeria.
Defendant also stated that he had never obtained permanent resident status in any other
country, had never been charged with a crime in any other country, and had no other
names or aliases.
In 2008, while Defendant continued to reside in Toronto, a grand jury in the United
States District Court for the District of North Dakota, returned an indictment charging
Defendant for his involvement in a fraud scheme. The case was styled United States of
America v. Adekunle Olufemi Adetiloye. Case No. 3:08-cr-28. The fraud scheme, which
began in 2004, involved opening up credit cards in the names of unsuspecting individuals,
and having the new credit cards delivered to commercial mailboxes around the United
States and then filtered to Toronto. The United States Department of Justice sought
Defendant’s extradition from Canada. In 2010, Canada extradited Defendant to the United
States.
In 2011, Defendant pled guilty to an Information in North Dakota to fraud charges
under the name Adekunle Olufemi Adetiloye. Defendant stated that his date of birth was
February 16, 1971. After pleading guilty, Defendant was interviewed by a court officer
who was preparing a Presentence Investigation Report to be used by the judge at
sentencing.

During the interview, Defendant provided the court officer with same

information he provided to Canadian officials regarding his name, birth date, resident
history, criminal history and having no other names or aliases.
The sentencing court held an evidentiary hearing. The government presented
evidence and argument that Defendant initiated the fraud scheme from Canada in 2004.
The government argued that Defendant should be held responsible under the advisory
4

Appellate Case: 19-1556

Page: 23

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LR R Document 143 Filed 01/23/19 Page 5 of 11

guidelines for losses and victims going back to the initiation of the scheme in 2004.
Defendant’s counsel argued that anything involving the fraud scheme prior to 2005 should
not be considered for sentencing purposes because Defendant, who identified himself to
Canadian officials as Adekunle Olufemi Adetiloye, did not arrive in Canada until 2005.
The sentencing court accepted the information provided by Defendant to the presentence
writer and accepted some of defense counsel’s arguments and sentenced Defendant as
Adekunle Olufemi Adetiloye accordingly. Part of the sentencing court’s reasoning was
that Defendant could not have initiated the scheme in 2004 because he did not arrive in
Canada until 2005, as shown on his Canadian immigration documents.
IV. MOTION FOR JUDGMENT OF ACQUITTAL
At the close of the government’s case, Defendant timely moved for a judgment of
acquittal under Federal Rule of Criminal Procedure 29(a). Defendant now renews his
motion as to Counts 1-4. With respect to Counts 1 and 2, Defendant argues that “[tjhere
was insufficient evidence presented at trial to establish that Defendant corruptly endeavored
to influence the due administration ofjustice in North Dakota” and “the government failed
in meeting its burden of proof.” Motion at 2, 5. With respect to Counts 3 and 4,
Defendant argues that “[tjhe government failed to establish beyond a reasonable [doubt]
that Defendant’s conduct influenced or impeded the due administration of justice in
California or that his conduct had a tendency to do that. ” Id. at 6. The court shall address
each argument in turn.
A. Legal Standard
Federal Rule of Criminal Procedure 29 provides that “the court on the defendant’s
motion must enter a judgment of acquittal of any offense for which the evidence is
insufficient to sustain a conviction.” Fed. R. Crim. P. 29(a). Such a motion is permitted
after trial, in which case the court may set aside the verdict and enter a judgment of
acquittal. See Fed. R. Crim. P. 29(c). Jury verdicts are not lightly overturned. See, e.g.,
5

Appellate Case: 19-1556

Page: 24

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 6 of 11

United States v. Peneaux, 432 F.3d 882, 890 (8th Cir. 2005); United States v. Stroh, 176
F.3d 439, 440 (8th Cir. 1999). The court must view the evidence in the light most
favorable to the government and draw all reasonable inferences in the government’s favor.
See United States v. Peters, 462 F.3d 953, 957 (8th Cir. 2006). The court must uphold
the jury’s verdict so long as a reasonable-minded jury could have found the defendant
guilty beyond a reasonable doubt. See id. Moreover, the court “must uphold the jury’s
verdict even where the evidence ‘rationally supports two conflicting hypotheses’ of guilt
and innocence. ” Id. (quoting United States v. Serrano-Lopez, 366 F.3d 628,634 (8th Cir.
2004)). It is not the province of the court to evaluate the credibility of witnesses that task
is for the jury. See United States v. Hayes, 391 F.3d 958, 961 (8th Cir. 2004).
B. Counts 1 and 2
In the Motion, Defendant argues that “[t]he government . . . failed to prove that
either Adekunle Adetiloye or Michael Adeyemo was a false identity.” Motion at 2.
Defendant asserts that “[t]he government failed to prove that either Adekunle Adetiloye
or Michael Adeyemo was not a name given to him as part of his Nigerian culture.” Id.
Defendant maintains that evidence offered at trial showed that he “had in fact used both
names throughout his life.” Id. at 2-3. Defendant contends that he has “never made a
false statement or affirmed a false statement regarding his name” because he has “used
both names throughout his lifetime.” Id. at 3. Further, Defendant argues that “nothing
would have changed whether [he] was convicted in the District of North Dakota as
Adekunle Adetiloye or Michael Adeyemo or under both names.” Id. Defendant contends
that his conduct did not have “a tendency to influence or impact the [judicial] proceedings
[in the District for North Dakota]” because the evidence presented at trial did not show
that he was involved in the fraud scheme prior to 2006. Id. at 4. Defendant asserts that
“[t]he government failed to establish beyond a reasonable doubt that [he] knew his actions
were likely to affect the judicial proceedings in North Dakota.” Id. at 5.
6

Appellate Case: 19-1556

Page: 25

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 7 of 11

In this case, the government presented sufficient evidence for the jury to find
beyond a reasonable doubt that Defendant obstructed justice in the fraud case brought in
the United States District Court for North Dakota. The evidence did not prove that
Defendant acquired the name Michael Adeyemo in a Nigerian naming ceremony. There
was no evidence that Defendant used the two names interchangeably. Not even his former
girlfriend, Alicia Whitman, had ever heard the name Michael Adeyemo prior to seeing it
attached to his image on-line after he was charged. Even if Defendant had acquired the
name in such a ceremony, the evidence was overwhelming that he used the name
fraudulently.
In 2005, while seeking refugee status in Canada, Defendant created a false identity,
Adekunle Olufemi Adetiloye. Defendant provided Canadian authorities with a different
name, different date of birth, denied having obtained permanent resident status in the
United States in the past, denied ever being charged with a crime, denied ever being
known by a different name or having aliases, denied ever living anywhere other than
Nigeria and claimed to have fled Nigeria due to persecution. After being extradited from
Canada to the United States to face fraud charges in the District for North Dakota,
Defendant used the false identity to demonstrate to the court that he was less culpable in
the fraud scheme because he was not in Canada at the time the fraud scheme started. In
addition to creating an alibi for the start of the fraud scheme, Defendant’s false statements
and identity were also advantageous to Defendant because they hid the fact that he had
previously been charged with a similar scheme in California. The falsehoods also made
him appear younger and less sophisticated and made him more sympathetic based on his
claim of fleeing Nigeria due to oppression. In the sentencing phase for the North Dakota
fraud case, defense counsel used Defendant’s falsehoods to argue for a more lenient
sentence. At sentencing, the district court made statements reflecting acceptance of
Defendant’s falsehoods and sentenced him accordingly. Viewed in the light most favorable
to the verdict, this evidence is sufficient to sustain a conviction as to Counts 1 and 2.
7

Appellate Case: 19-1556

Page: 26

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 8 of 11

Therefore, the court shall deny the Motion as to Counts 1 and 2.
C. Counts 3 and 4
Defendant argues that “(tjhere was insufficient evidence that [his] actions impeded
or influenced or had a tendency to impede or influence the [United States District Court
for the Central District of] California case” because “despite the years that have passed
since investigators have learned that Adetiloye and Adeyemo are the same person, the
Central District of California has done nothing. ” Motion at 5-6. Defendant maintains that
he “lacked the requisite knowledge that his conduct was likely to affect the California
case.” Id. at 6.
In this case, the government presented sufficient evidence that Defendant obstructed
justice in the pending case brought in the United States District Court for the Central
District of California. By providing a false identity and false information to the United
States District Court for North Dakota, Defendant was able to avoid the outstanding
warrant and indictment in the fraud case brought in the Central District of California.
Defendant abandoned his home, abandoned his girlfriend who was pregnant with his
children (triplets), gave up ten years of living in the United States and gave up the
possibility of United States citizenship to avoid the criminal charges in California.
Following resolution of the instant case, the Central District of California may proceed
with their case. Viewed in the light most favorable to the verdict, this evidence is
sufficient to sustain a conviction as to Counts 3 and 4. Accordingly, the court shall deny
the Motion as to Counts 3 and 4.
V. MOTION FOR NEW TRIAL
In the Motion, Defendant alleges that two grounds warrant the court granting him
a new trial. First, Defendant argues that he is entitled to a new trial because his
“constitutional argument was never addressed. ” Motion at 7. Second, Defendant argues
that he is entitled to a new trial because there were “errors in the jury instructions.” Id.
at 8. The court shall address each argument in turn.
8

Appellate Case: 19-1556

Page: 27

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 9 of 11

A. Legal Standard
Federal Rule of Criminal Procedure 33 provides that, “[u]pon the defendant’s
motion, the court may vacate any judgment and grant a new trial if the interest of justice
so requires.” Fed. R. Crim. P. 33(a). “The decision to grant a Rule 33 motion is within
the sound discretion of the [district [cjourt... .” United States v. Amaya, 731 F.3d 761,
764 (8th Cir. 2013) (quoting United States v. Dodd, 391 F.3d 930, 934 (8th Cir. 2004)).
“When considering a motion for a new trial, a district court may ‘weigh the evidence,
disbelieve witnesses, and grant a new trial even where there is substantial evidence to
sustain the verdict.’” Id. (quoting United States v. Campos, 306 F.3d 577, 579 (8th Cir.
2002)). However, “[mjotions for new trials are generally disfavored and will be granted
only where a serious miscarriage of justice may have occurred. ” United States v. Morris,
817 F.3d 1116, 1121 (8th Cir. 2016) (quoting United States v. Fetters, 698 F.3d 653, 656
(8th Cir. 2012)). “Trial courts should ‘exercise the Rule 33 authority sparingly and with
caution.’” United States v. Knight, 800 F.3d 491, 504 (8th Cir. 2015) (quoting Campos,
306 Fj3d at 579).
B. Constitutional Argument
Defendant argues that the court should grant him a new trial because “[n]o crime
can lie where the defendant would be forced to give up his [cjonstitutional right.” Motion
at 7. Relying on Hiibel v. Sixth Judicial Dist. Court of Nevada, Humboldt County, 542
U.S. 177 (2016), Defendant asserts that he was protected under the Constitution “from
having to disclose as part of the North Dakota proceedings his identity as Michael
Adeyemo.” Motion at 7-8. Defendant concludes that, “[bjecause there was a pending
criminal matter in California, the United States Constitution protects [his] conduct
involving the alleged false statements relied upon by the government to obtain the
convictions.” Id. at 8.
Defendant’s reliance on Hiibel is misplaced. In Hiibel, the defendant was arrested
and convicted for refusing to identify himself during a lawful Terry stop pursuant to a
9

Appellate Case: 19-1556

Page: 28

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 10 of 11

“stop and identify” statute. 542 U.S. at 180-82. The Court determined that the Fifth
Amendment was inapplicable to the facts of the case because the defendant’s “refusal to
disclose his name was not based on any articulated real an appreciable fear that his name
would be used to incriminate him.” Id. at 190. The Court noted, however, that “a case
may arise where there is a substantial allegation that furnishing identity at the time of a
stop would have given the police a link in the chain of evidence needed to convict the
individual of a separate offense.” Id. at 191. The Court concluded that in such a case,
“the court can then consider whether the privilege applies, and, if the Fifth Amendment
has been violated, what remedy must follow. ” Id.
Here, Defendant was not involved in a Terry stop and did not refuse to identify
himself to law enforcement for fear that identifying himself would lead to conviction of a
separate offense. Instead, Defendant volunteered a great deal of identification information
to the district court in North Dakota. However, the information was false and designed
to mislead the district court in North Dakota as to Defendant’s true identity and to prevent
the district court in Central District of California from discovering Defendant’s location.
Defendant’s constitutional rights were not violated. Therefore, the court shall deny the
Motion as to this issue.
C. Jury Instructions
Defendant argues that Jury Instructions 12 and 14 include a “disputed fact that is,
the existence of a ‘false identity.’” Motion at 8. Defendant argues that the Verdict Form
was also misleading. Id. at 9. Specifically, Defendant asserts that the Verdict Form
“erroneously focused the jury’s attention on only one aspect of the elements by including
the special interrogatory for only two out of the four counts[.]” Id. Finally, Defendant
argues that “the course of conduct charged in the indictment was narrower than the
government’s proof at trial and the jury instructions.” Id. at 10.
Here, in both Jury Instructions 12 and 14, the jury was instructed that, in order to
find Defendant guilty, “the government must prove each and every element beyond a
10

Appellate Case: 19-1556

Page: 29

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 143 Filed 01/23/19 Page 11 of 11

reasonable doubt. ” Jury Instructions (docket no. 131) at 14, 16. Instructions 12 and 14
do not provide any factual findings.

Instead, Instructions 12 and 14 required the

government to prove everything identified in the instruction. The jury is presumed to have
followed the instructions. See United States v. Thomas, 877 F.3d 1077, 1079 (8th Cir.
2017) (“A jury is presumed to follow its instructions”) (quoting United States v. Myers,
503 F.3d 676, 683 (8th Cir. 2007))). Similarly, Defendant’s argument that the Verdict
Form and special interrogatories confused the jury is misplaced. The pertinent Verdict
Forms clearly stated that the jury was not to consider the Interrogatory Form unless it
found Defendant guilty of the charge. See Jury Verdict (docket no. 135) at 2, 6. Finally,
the court is not persuaded by Defendant’s argument that “the course of conduct charged
in the indictment was narrower than the government’s proof at trial and the jury
instructions.” Motion at 10. The court finds that the evidence presented at trial was
directed at the charges in the Indictment, namely that Defendant obstructed justice by
providing a false identity and false information to the District Court for North Dakota and
others for the purpose of masking his involvement in the underlying fraud scheme charged
in North Dakota, and to hide the fact that he was subject to charges pending against him
in the Central District of California. Accordingly, the court shall deny the Motion as to
this issue.
VI. CONCLUSION
In light of the foregoing, the Motion (docket no. 139) is DENIED. Defendant’s
pro se Motion for New Trial (docket no. 140) is also DENIED.
IT IS SO ORDERED.
DATED this 23rd day of January, 2019.

LDJjDA R. REaDEJ JUDGE
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF IOWA
11

Appellate Case: 19-1556

Page: 30

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 1 of 9
Local AO 245B (Rev. 2/18) Judgment in a Criminal Case
Sheet t

United States District Court
District of North Dakota
)
JUDGMENT IN A CRIMINAL CASE
)
)
)
Case Number: 3:15-cr-90
)
)
USM Number: 10621-059
)
Ronald K. Hetttch
)
Defendant’s Attorney
)

UNITED STATES OF AMERICA
v.
Michael Adefemi Adeyemo
aka Adekunle Olufemi Adetiloye

THE DEFENDANT:
□ pleaded guilty to count(s)

____

□ pleaded nolo contendere to count(s)
which was accepted by die court
ONE(l), TWO(2), THREE(3) and FOUR(4) of the Superseding Indictment.
0 was found guilty on counts)
alter a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
18 USC §§ 1503

Offense Ended

Nature of Offense

2/9/2011

Obstruction of Justice

Count
1 and 3

and 2
continued on page 2
9

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.
□ The defendant has been found not guilty on count(s)
___
□ Counts)

□ is

of this judgment. The sentence is imposed pursuant to

□ are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 davs of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by thisjudgmental* folly paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
March 4,2019
Dal

dlion of Ji

Signature of Judgo

Linda R. Reade

U.S. Senior Judge

Name and Title ofJudge

Date

McucK M-t

"APPENDIX A"
ADD.(IB)
Appellate Case: 19-1556

Page: 4

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 2 of 9
Local AO 245B (Rev. 2/18) Judgment in a Criminal Cato
Sheet IA
Judgment—Page

2

of

DEFENDANT: Michael Adelfemi Adeyemo aka Adekunle Oiufemi At
CASE NUMBER: 3:15-cr-90

ADDITIONAL COUNTS OF CONVICTION
Title & Section
18 USC §§ 1503

Nature of Offense
Obstruction of Justice

Offense Ended
3/3/2011

Count
2 and 4

and 2

Appellate Case: 19-1556

Page: 5

Date Filed: 07/19/2019 Entry ID: 4810042

9

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 3 of 9
Local AO 245B (Rev. 2/18) Judgment In Criminal Case
Sheet 2—Imprisonment
Judgment—Page

3

of

DEFENDANT: Michael Adefemi Adeyemo aka Adekunle Olufemi At
CASE NUMBER: 3:15-cr-90

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:
See page 4

□ The court makes the following recommendations to the Bureau of Prisons:

SI The defendant is remanded to the custody of the United States Marshal.
□ The defendant shall surrender to the United States Marshal for this district:

□ at

□ a.m.

□ p.m.

on

___

□ as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before 2 pun. on

__________________________ .

□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.

RETURN
1 have executed this judgment as follows:

to

Defendant delivered on

, with a certified copy of this judgment.

a

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Appellate Case: 19-1556

Page: 6

Date Filed: 07/19/2019 Entry ID: 4810042

9

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 4 of 9
Local AO 245B (Rev. 2/18) Judgment in a Criminal Case
Sheet 2A — Imprisonment
Judgment—Page

4

of

DEFENDANT: Michael Adefemi Adeyemo aka Adekunie Olufemi Ar
CASE NUMBER: 3:15-cr-90

ADDITIONAL IMPRISONMENT TERMS

§3584.

Appellate Case: 19-1556

Page: 7

Date Filed: 07/19/2019 Entry ID: 4810042

9

V

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 5 of 9
Local AO MSB (Rev. 2/IB) Judgment In a Criminal Case
Sheet 3—Supervised Release
Judgment—Page

S

of

9

DEFENDANT: Michael Adefemi Adeyemo aka Adektinle Olufemi At
CASE NUMBER; 3:15-cr-90

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:

THREE (3) years.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within IS days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, (check ifapplicable)
El You must cooperate in the collection of DNA as directed by the probation officer, (check ifapplicable)
□ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 2091, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where you
reside, work, are a student, or were convicted of a qualifying offense, (check (fapplicable)
□ You must participate in an approved program for domestic violence, (check Ifapplicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Appellate Case: 19-1556

Page: 8

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 6 of 9
Local AO 245B (Rev. 2/18) Judgment in a Criminal Case
Sheet 3A — Supervltcd Release
Judgment—Page

6

of

9

DEFENDANT: Michael Adefemi Adeyemo aka Adekunle Olufeml At
CASE NUMBER; 3:lS-cr-90

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
bprmico they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to die court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfiilly the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
You must work fiiU time (at least 30 hours per week) at a lawfbl type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without fust getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must nbt act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.
Date

Defendant's Signature

Appellate Case: 19-1556

Page: 9

Date Filed: 07/19/2019 Entry ID: 4810042

ri

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 7 of 9
Local AO 245B(Rev. 2/18) Judgment In a Criminal Case
Sheet 3D—Supervised Release
Judgment—Page

7

of

9

. DEFENDANT: Michael Adefemi Adeyemo aka Adekunle Olufemi At
CASE NUMBER: 3:15-cr-90

SPECIAL CONDITIONS OF SUPERVISION
1. You must disclose your financial situation at the request of the supervising probation officer.
2. You must snbmlt your person, residence, workplace, vehicle, computer (including any passwords), and/or possessions to a
search conducted by a United States Probation Officer based upon evidence of a violation of a condition of supervision. Failure
to submit to a search may be grounds for revocation, additional criminal charges, and arrest The defendant shall notify any
other residents that the premises may be subject to searches pursuant to this condition.
3. If the defendant is removed or deported from the United States, the defendant must not reenter unless the defendant
obtains permission from the Secretary of Homeland Security. If the defendant is removed or deported from the United States,
the defendant will not be on active supervision. If the defendant reenters the United States during the term of supervised
release the defendant must report to the nearest U.S. Probation Office within 72 hours of the date the defendant reenters the
United States. If the defendant remains in the United States during the term of supervised release defendant must report to the
U.S. Probation Office in the district to which the defendant Is released within 72 hours of release from custody.

Appellate Case: 19-1556

Page: 10

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 8 of 9
Local AO 245B (Rev. 2/18) Judgment in a Criminal Case
Sheet S — Criminal Monetary Penalties
Judgment—Page

8

of

DEFENDANT: Michael Adefemi Adeyemo aka Adektrale Olufenti At
CASE NUMBER: 3:l5-cr-90

9

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment

TOTALS

$ 400.00

JVTA Assessment*

Fine

$

s

S

□ The determination of restitution is deferred until
after such determination.

Restitution

. An Amended Judgment in a Criminal Case(A024SQ will be entered •

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise jn
before thPunited States is paSj Pa^ment co umn e*ow- However, pursuant to 18 .S. . § 3664(i), all nonfederal victims must be paid
Name of Payee

TOTALS

Restitution Ordered

Total Loss**

s

0.00

S

Priority or Percentage

0.00

□

Restitution amount ordered pursuant to plea agreement S

□

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that
□ the interest requirement is waived for the
□ the interest requirement for the

□ fine

□ fine

□ restitution.

□ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount oflosses are required under Chapters 109A, 110, l I0A, and 113A of Tide 18 for offenses committed on or
after September 13,1994, but before April 23, 1996.

Appellate Case: 19-1556

Page: 11

Date Filed: 07/19/2019 Entry ID: 4810042

Case 3:15-cr-00090-LRR Document 157 Filed 03/05/19 Page 9 of 9
Local AO 245B (Rev. 2/1S) Judgment in a Criminal Case
Sheet 6 — Schedule cf Payments
Judgment — Pago

9

of

9

DEFENDANT: Michael Adefemi Adeyemo aka Adekunle Olufemi Ac
CASE NUMBER: 3:15-cr-90

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetaiy penalties is due as follows:
A

Lump sum payment of $
□
El

400.00

due immediately, balance due

not later than___________
in accordance with □ C, □ D,

,or
□ E,or

0 F below; or
□ C,

□ D, or

□ F below); or

B

□ Payment to begin immediately (may be combined with

C

over a period of
(e.g., weekly, monthly, quarterly) installments of $
□ Payment in equal
(e.g., 30 or 60 days) after the date of this judgment; or
(eg., months oryears), to commence

D

over a period of
(eg., weekly, monthly, quarterly) installments of S
□ Payment in equal
(eg.,
30
or
60
days)
after
release
from
imprisonment
to a
(eg., months oryears), to commence
term of supervision; or

E

□ Payment during the term of supervised release will commence within __________ (eg.. 30 or 60 days) after release from
imprisonment The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

E) Special instructions regarding the payment of criminal monetary penalties:
All criminal monetary payments are to be made to the Clerk's Office, US District Court, 6551st Avenue North, Suite
130, Fargo, ND 58102.

Financial Responsibility Program, are made to the clerk of the court
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□

The defendant shall pay the following court cost(s):

□

The defendant shall forfeit the defendant’s interest in the following property to the United States:

Appellate Case: 19-1556

Page: 12

Date Filed: 07/19/2019 Entry ID: 4810042

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1556
United States of America
Appellee
v.
Michael Adefemi Adeyemo, also known as Adekunle Olufemi Adetiloye
Appellant

Appeal from U.S. District Court for the District of North Dakota - Fargo
(3:15-cr-00090-LRR-1)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
Judge Erickson did not participate in the consideration or decision of this matter.
November 18, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-1556

Page: 1

Date Filed: 11/18/2020 Entry ID: 4976906

